<html>
<title> - H.R. 4084, NUCLEAR ENERGY INNOVATION CAPABILITIES ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


         H.R. 4084, NUCLEAR ENERGY INNOVATION CAPABILITIES ACT

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            December 3, 2015

                               __________

                           Serial No. 114-53

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                              ____________
                              
                              
                     U.S. GOVERNMENT PUBLISHING OFFICE
20-823PDF                    WASHINGTON : 2017                     
         
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0a7b0af80a3b5b3b4a8a5acb0eea3afadee">[email&#160;protected]</a>  
         
             
             
             
             
             COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEPHAN KNIGHT, California           ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas
                            
                            C O N T E N T S

                            December 3, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     5
    Written Statement............................................     6

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    21
    Written Statement............................................    22

                               Witnesses:

Mr. John Kotek, Acting Assistant Secretary, Office of Nuclear 
  Energy, U.S. Department of Energy
    Oral Statement...............................................    11
    Written Statement............................................    14

Dr. Dale Klein, Associate Vice Chancellor for Research, 
  University of Texas
    Oral Statement...............................................    23
    Written Statement............................................    25

Mr. Ray Rothrock, Partner Emeritus, Venrock
    Oral Statement...............................................    31
    Written Statement............................................    34
Discussion.......................................................    50


             Appendix I: Additional Material for the Record

Statement submitted by Representative Alan Grayson, Minority 
  Ranking Member, Subcommittee on Energy, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    62

 
         H.R. 4084, NUCLEAR ENERGY INNOVATION CAPABILITIES ACT

                              ----------                              


                       THURSDAY, DECEMBER 3, 2015

                  House of Representatives,
                     Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. The Subcommittee on Energy will come to 
order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time, and we expect votes 
to be called just any minute.
    Welcome to today's hearing entitled ``H.R. 4084, the 
Nuclear Energy Innovation Capabilities Act.''
    I am going to defer my opening statement. I know the 
Chairman has graciously agreed to, and the Ranking Member has 
also, to be put in the record. So good morning. I thank you all 
for coming. And I would like to thank Ranking Member Johnson, 
who's not here, and Chairman Smith for cosponsoring this bill 
with me. It is an absolute honor to work with fellow Texans to 
establish policies that keep America globally competitive, 
support innovation in our economy, and actually promote 
national security goals. And I would also like to think other 
cosponsors from this Science Committee.
    As the Energy Subcommittee's legislative business for 2015 
draws to a close, we're going to be work with this stuff. You 
can read the rest of my statement in the record.
    [The prepared statement of Chairman Weber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. With that, I'm going to introduce the 
witnesses. Our first witness today is Mr. John Kotek, Acting 
Assistant Secretary for the Office of Nuclear Energy at the 
DOE. Mr. Kotek previously served as the Principal Deputy 
Assistant Secretary for the Office of Nuclear Energy. In 
addition, Mr. Kotek--am I pronouncing that correct--okay--
received his bachelor's degree in nuclear engineering from the 
University of Illinois and his MBA from the University of 
Maryland.
    I will now yield to the Chairman of the full Committee, Mr. 
Smith, to introduce our second witness.
    Chairman Smith. Thank you, Mr. Chairman.
    Our second witness today is Dr. Dale Klein, Associate Vice 
Chancellor for Research for the University of Texas System. In 
2006, Dr. Klein joined the Nuclear Regulatory Commission and 
was later appointed Chairman by President Bush, where he served 
until 2010. As Chairman, Dr. Klein was the Principal Executive 
Officer and Official Spokesman for the NRC. He was responsible 
for the administrative, organizational and long-range planning, 
budgetary, and personnel functions of the agency. Prior to 
joining the NRC, Dr. Klein was the Assistant to the Secretary 
of Defense for Nuclear, Chemical, and Biological Defense 
programs. He also served as the Vice Chancellor for Special 
Engineering Programs at the University of Texas and as a 
Professor in the Department of Mechanical Engineering at the 
University of Texas. Dr. Klein holds a Ph.D. in nuclear 
engineering from the University of Missouri.
    Dr. Klein, thank you for making the trip from Austin today. 
We look forward to your testimony.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Chairman Smith.
    Our final witness today is Mr. Ray Rothrock, Partner 
Emeritus of Venrock. Mr. Rothrock has had a career in venture 
capital spanning over 25 years, successfully investing in over 
50 startup companies. Mr. Rothrock received his bachelor's 
degree in nuclear engineering from Texas A&M, his master's 
degree in nuclear engineering from MIT, and his MBA from 
Harvard.
    I now recognize Mr. Kotek for five minutes to present his 
testimony.

                  TESTIMONY OF MR. JOHN KOTEK,

                  ACTING ASSISTANT SECRETARY,

                   OFFICE OF NUCLEAR ENERGY,

                   U.S. DEPARTMENT OF ENERGY

    Mr. Kotek. Thank you, Chairman Weber, Ranking Member 
Grayson, and Members of the Committee. Thank you for the 
invitation to testify at today's hearing.
    I appreciate the Committee's interest in research and 
development of advanced nuclear energy technologies.
    The Department of Energy does not have a position on the 
legislation but it is consistent with much of the work 
currently being done by DOE.
    As has been noted before this Committee in the past, 
nuclear energy continues to play a vital role in the 
President's energy strategy for a sustainable, clean energy 
future. Nuclear energy has provided nearly 20 percent of 
electrical generation in the United States over the past two 
decades and currently produces more than 60 percent of 
America's carbon-free electricity.
    As the United States leads the global transition to a low-
carbon economy, the continued development of new and advanced 
nuclear energy technologies along with support for currently 
operating nuclear power plants is an important component of our 
clean energy strategy.
    Because nuclear energy innovation is at the heart of 
today's hearing, let me focus my oral remarks on DOE's research 
and development programs for advanced reactor technologies.
    Future-generation reactor systems may employ advanced 
technologies and designs to improve performance beyond what is 
currently available. More advanced reactor designs with 
coolants other than light water, often referred to as 
generation IV designs, may enable reactors to operate at higher 
temperatures and with increased efficiencies. Continued R&D in 
this area is essential for the long-term prospects of nuclear 
energy.
    Advanced reactor technologies considered in DOE's R&D 
program reside at different technology maturity levels with R&D 
efforts mainly focused on three advanced concepts: liquid 
metal-cooled fast reactors, fluoride salt-cooled high-
temperature reactors, and high-temperature gas-cooled reactors.
    DOE has also initiated studies on how to optimize the 
integration of nuclear energy and variable renewable energy 
sources through collaboration between my office and the Office 
of Energy Efficiency and Renewable Energy. These studies will 
not only examine integration of current light water reactor 
technology, but also advanced reactor technologies that have 
the potential to provide high-temperature process heat in 
addition to electricity.
    As noted in the proposed legislation, investments in the 
infrastructure to support advancement of nuclear technology are 
also critical. Research, development, and demonstration 
programs are dependent on an infrastructure of experimental and 
computational facilities, access to critical materials and 
data, and highly trained scientists and engineers dedicated to 
meeting the needs of the nation.
    The proposed legislation identifies three specific 
requirements for DOE to address in the areas of high-
performance computing and supportive research, a versatile 
neutron source, and enabling nuclear energy innovation. NE 
programs are currently working across these three critical 
areas.
    The Consortium for Advanced Simulation of Light Water 
Reactors or CASL, a DOE Energy Innovation Hub centered at Oak 
Ridge National Lab, was established to provide leading-edge 
modeling and simulation capability to improve the performance 
of currently operating reactors. This successful program has 
now expanded beyond operating reactors to support modeling and 
simulation for small modular reactors. Additionally, our 
Nuclear Energy Advanced Modeling and Simulation program is 
addressing modeling and simulation needs for nuclear fuels and 
for advanced nuclear reactors. As these tools are developed and 
integrated, NEAMS will be able to provide nuclear technology 
designers with a truly predictive capability that spans from 
the fuel pellets to the entire plant to better predict the 
performance, reliability and economics of advanced nuclear 
power plants.
    With respect to a new versatile neutron source, DOE is 
evaluating the potential need for a new research reactor 
capability. To support the development of advanced reactor 
technology options, the Department has undertaken a study to 
determine the needs of the advanced nuclear reactor community 
and to develop options, including the key features and timing 
for a possible advanced test or demonstration reactor to 
support research, development and demonstration, and eventual 
commercialization of advanced reactor systems.
    And finally, with respect to enabling nuclear energy 
innovation, NE identified that improvements can be made to 
accelerate the innovation of nuclear technologies. To further 
enable this goal, NE launched the Gateway for Accelerated 
Innovation in Nuclear, or GAIN, during last month's White House 
Summit on Nuclear Energy. GAIN will provide the nuclear energy 
community with a single point of access to the broad range of 
resources, people, facilities, materials and data at our Idaho 
National Lab and across the DOE complex. Focused research 
opportunities and dedicated industry engagement will also be an 
important component of GAIN, ensuring that DOE-sponsored 
activities are impactful to companies working to realize the 
full potential of nuclear energy.
    Chairman Weber, Ranking Member Grayson and members of the 
Committee, thank you again for inviting me to discuss this 
legislation and the work that the Department and the Office of 
Nuclear Energy are currently doing, and I'd be happy to answer 
any questions.
    [The prepared statement of Mr. Kotek follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Mr. Kotek.
    We have been joined by the Ranking Member of the Full 
Committee, the gentlelady from Texas. You're now recognized for 
your opening statement, Ms. Johnson.
    Ms. Johnson. Thank you very much, and I apologize for being 
late--I knew the vote was coming, and I thought this would 
follow--on the Nuclear Energy Innovation Capabilities Act, 
which I am very pleased to cosponsor with you, and I'd like to 
thank our Acting Assistant Secretary for Nuclear Energy, Mr. 
John Kotek, for agreeing to be here today on such short notice, 
and I hope that our friends in the Senate will take away that 
``Acting'' very soon.
    As I have noted before, nuclear power plays a vital role in 
providing our country with clean, reliable energy. I live in an 
area where there's nuclear energy. Nationally, it produces 
almost 20 percent of our total electric power and provides 
almost nine percent of the electricity generated in our great 
State of Texas, all with essentially no greenhouse gas 
emissions.
    But there currently are technical, economic, and policy 
challenges that prevent nuclear energy from playing a larger 
role in enabling our clean energy future. The Nuclear Energy 
Innovation Capabilities Act takes several positive steps to 
address these challenges. Implementing the provisions in this 
bill will help accelerate the development of advanced nuclear 
energy technologies that are safer, less expensive, more 
efficient, and produce less waste than the current generation 
of nuclear reactors.
    I look forward to hearing from the distinguished panel that 
we have here today on any improvements we can make to this 
legislation to achieve these goals.
    I'd like to express my appreciation for the process we 
followed to put this bill together. Majority and Minority staff 
worked closely together every step of the way, from engaging 
stakeholders through the helping to craft and incorporate 
suggested changes to bill language. This is a great example of 
what we can achieve when we put politics aside and join forces 
to address the challenges facing our nation's research 
enterprise.
    I thank all of you for being here, and I yield back, Mr. 
Chairman. Thank you.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. I want to thank the gentlelady from Texas, 
and when we opened, I said that I really appreciated you and 
Chairman Smith's cosponsoring and helping with this bill, so I 
thank you very much.
    Dr. Klein, you are recognized for five minutes.

                  TESTIMONY OF DR. DALE KLEIN,

            ASSOCIATE VICE CHANCELLOR FOR RESEARCH,

                      UNIVERSITY OF TEXAS

    Mr. Klein. Thank you. Chairman Smith, Chairman Weber, 
Members of the Committee, it is a pleasure to appear before you 
today along with my colleagues to discuss H.R. 4081.
    As a former chairman of the Nuclear Regulatory Commission, 
a Fellow of the American Nuclear Society, and a Research 
Administrator at a major university, I applaud the committee 
for introducing this legislation and I hope that it kick-starts 
a broader effort by all the relevant committees of jurisdiction 
to review and update federal nuclear energy policy.
    While I currently serve as the Associate Vice Chancellor 
for Research at The University of Texas System and serve on two 
utility boards, my comments today represent my views, not those 
of my employer nor the boards on which I serve.
    In order to understand the importance of this legislation, 
it's important to step back and appreciate the larger global 
context. Currently, there are nearly 2 billion people who still 
lack basic access to electricity, and many more whose current 
access is unreliable. Add to that the increasing urbanization 
of the developing world, with its attendant air quality issues, 
and finally the need to significantly reduce global carbon 
emissions, and you have what is perhaps the largest civilian 
technology infrastructure challenge in world today.
    One thing is clear: Any successful response to this 
challenge will by necessity include a significant role in 
nuclear energy, and if the United States wants to exert its 
influence on safety, security, and non-proliferation under 
which this global growth takes place, it must be a leader in 
nuclear technology development.
    H.R. 4084 is an important first step toward aligning 
federal nuclear policies with today's realities, and if 
enacted, I believe would create a more collaborative 
relationship between the government and the public-private 
sector to advance nuclear science and public innovation.
    It is important to understand, however, that success will 
require other policy changes that extend beyond the 
jurisdiction of this committee. For instance, I believe it is 
inconceivable that any nuclear technology can achieve 
commercialization without the beneficial scrutiny of the 
Nuclear Regulatory Commission. I know that many may question my 
use of the word ``beneficial'' when you talk about the Nuclear 
Regulatory Commission, however, its role in protecting the 
public and the environment are fundamental to any successful 
nuclear energy technology. The NRC remains the best agency to 
address these requirements.
    I should note that the Committee staff provided me with the 
July 2015 testimony by NRC Chairman Burns and of Mr. Todd 
Garvey, Legislative Attorney for the Congressional Research 
Service, concerning the authority of the NRC to address 
advanced reactor designs and licensing. After reading their 
statements I was once again reminded why I became an engineer 
and not a lawyer. But I believe that there was agreement that 
the NRC has the authority and is fully capable of providing the 
review and guidance needed to support innovative technologies. 
The real question is how do you provide funds to the NRC in 
order to carry out this activity.
    My second point is more of a cautionary note directed to my 
good friends at the Department of Energy where I encourage them 
to view this opportunity to change their approach to managing 
construction projects and public-private partnerships. I would 
encourage the Committee to consider implementing guidance to 
Section 7 that would direct the Department to identify 
governance approaches in addition to contractual mechanisms 
that would facilitate partnering with the private sector.
    My last point is that most nuclear projects today involve 
some level of international collaboration and foreign 
involvement. While continued U.S. competitiveness is an 
important issue, we must also recognize the benefits of 
collaboration. Therefore, we must be mindful of the 
restrictions and barriers that we have to international 
collaborators. I would encourage the Committee to look at 
activities that would remove barriers with no loss to our 
national security goals.
    I hope that this legislation will provide Congress and the 
Administration a common ground to rebuild our national security 
science and technology infrastructure and reinvigorate the 
collaborative relationship between the government and the 
private sector.
    Thank you very much, and I look forward to your questions
    [The prepared statement of Mr. Klein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Dr. Klein.
    Mr. Rothrock, you're now recognized for five minutes to 
tell us how to pay for this.

                 TESTIMONY OF MR. RAY ROTHROCK,

                   PARTNER EMERITUS, VENROCK

    Mr. Rothrock. Well, let's start with some big checkbooks.
    Good morning, Chairman Weber. Thank you very much for this 
opportunity, Ranking Member Grayson, Chairman Smith, Ranking 
Member Johnson and members of the Subcommittee. I really 
appreciate you all introducing this bill H.R. 4084, Nuclear 
Energy Innovation Capabilities Act. It's also nice to be among 
a bunch of fellow Texans. I appreciate that.
    This bill comes at a very important time in the history of 
nuclear power and clean energy, and I'm delighted to share with 
you today my experiences in the nuclear innovation ecosystem 
that exist in the United States and how this bill fits in that 
particular ecosystem.
    My journey to this table, I think, started when I was asked 
to testify how venture capital could assist in the Blue Ribbon 
Commission on America's Nuclear Future some years ago, which 
led to my co-producing the movie Pandora's Promise, which 
ultimately led to a handful of citizens getting together and 
addressing these problems.
    So why nuclear power now? Well, it would be quite 
irrelevant if not for the fact that there are over 40 nuclear 
startups in North America now. Please cue the slide.
    [Slide]
    As we began our journal across the county in the last 
several years, we discovered a very large group of startup 
companies, over 40, backed by $1.6 billion of private capital, 
not government capital, private capital. ThirdWay, based here 
in Washington, documented this more completely and presented 
this slide. The needs of these companies are all the same. They 
need patient investors with deep pockets, modern computational 
capability, nuclear-qualified laboratory space to prove their 
designs, and ultimately the approval of the Nuclear Regulatory 
Commission. The findings of these 40 startups was very exciting 
to us and also was a surprise to virtually everyone we've 
talked to, including people in the government.
    So the entrepreneurs running these companies have all 
concluded that there is a need for a new reactor design to 
address many things that Ranking Member Johnson mentioned about 
economics, for example. I live and work in the Silicon Valley 
and have for nearly three decades, and I've witnessed from time 
to time the way to solve a problem is to get many people 
working on that problem, many innovators, and in the Silicon 
Valley we call that many shots on goal. It provides not only 
competition but it creates speed of solutions, and at the end 
of the day, we all win. Many shots on goal require lots of 
ideas, lots of innovators, lots of capital, and I would say 
that with the 40 startups we have in the United States, we're 
well on our way to having many shots on goal.
    But they can't do it alone. It requires a partnership with 
the government. For good and obvious reasons, nuclear 
development by its very nature and by law requires the 
government. None of these guys are going to succeed if they try 
to do this in the Silicon Valley or in a laboratory in New 
Mexico. It requires nuclear-qualified lab facilities, and this 
bill talks about bringing some of that capability to them.
    The national labs of our country are the finest in the 
world. I visited many of them, and I've personally spoken to 
their leaders who are eager to assist, so your bill is well 
timed.
    Also, I want to in the spirit of a good signal to this 
community congratulate the Department of Energy, the White 
House, at the White House, the GAIN program, which was just 
referred to by Mr. Kotek, and all his staff was very well 
received from the community, and I've met subsequently with 
many of them. It's very compelling. It's very attractive to the 
private sector. But I will add this. After nearly 30 years of 
venture capital and having seen tens of thousands of business 
plans with very ambitious goals, it is all in the execution, 
and so I look forward to helping, whatever I can do to help the 
Department of Energy execute the GAIN program.
    There is one--well, I'll skip that. The second signal, 
operating concepts of nuclear innovation facilities, so I 
personally went out and surveyed as many of these folks as I 
could subsequent to being invited to speak here, and a couple 
of things to point out. This needs to be a very focused 
program. It needs to operate pretty quickly, so I would 
recommend a single point of contact for these private 
companies. They should all submit a work plan that's approved 
by whatever lab or whatever designated facility is created. 
They need to be able to pay for it and they need to be able to 
prove that they can pay for it, which requires teaming with the 
investors. There is an issue with the way national laboratories 
charge out some of their overhead. I've talked to several 
national laboratory directors about this, and I'm sure we can 
solve that problem, but I would recommend some sort of grant 
that's a non-cash kind of a grant such as $1 of startup 
capital, $2 of government capital, that gets into the 
accounting of it all. I don't mean to get into the--their 
details there but it's something that needs to get sorted out, 
otherwise it'll just create more friction in the process.
    Intellectual property should belong to the company. The 
liability should be well understood as everyone goes into this. 
Everyone needs to be safety-trained on health physics and other 
safety issues. Information sharing and consultation is very 
important, and I think embedding the NRC in the process will be 
a very important element as well.
    There's one question that comes to mind, and I'm nearly out 
of time, but quickly, there is confusion or--well, there is 
confusion out there. Can a startup company, even if they have 
the permission to use the DOE facility, can they build a 
reactor without the approval of the NRC on DOE property? This 
is a legal issue that was asked and answered years ago, thought 
resolved, but if you ask people in the system, they are very 
confused by it.
    So I just want to say in conclusion, I support this bill. I 
hope this and many others that will follow will put the United 
States back into leadership position that has been suggested 
here.
    I thank you for this opportunity to testify, and we need to 
hurry. Thank you.
    [The prepared statement of Mr. Rothrock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. We need to hurry about this bill, or about 
voting?
    Mr. Rothrock. Yes.
    Chairman Weber. Both. Well, we appreciate that, Mr. 
Rothrock, and we are going to recess. It'll probably take us 
somewhere around 35, 45 minutes, and then we will be back.
    We are recessed.
    [Recess.]
    Chairman Weber. Okay. We are reconvened, and if I can find 
my place in my notes, we'll get started here. Thank you all for 
waiting for us.
    Okay. The Chair's going to recognize himself for five 
minutes.
    Mr. Kotek, you mentioned that the Office of Nuclear Energy 
is working to address each of the major areas of H.R. 4084 
including Section 7, which Mr. Rothrock actually referenced, to 
enable the private sector to partner with national labs. Do you 
see any major impediments for DOE to carry out the National 
Reactor Innovation Center as basically described in Section 7 
of the bill?
    Mr. Kotek. Thank you for the question, Mr. Chairman. The 
timing is actually quite interesting. I mentioned in my 
testimony, we have the GAIN initiative that we just announced 
last month. Through that, we're trying, I think, to address 
some of the things that you're getting at in your bill in terms 
of providing better access for companies and innovators to the 
set of tools, capabilities, codes, facilities, et cetera that 
exist at our national laboratories. So that I think gets at 
part of it.
    Another thing that has been raised with us is the 
possibility of building privately funded reactors facilities at 
DOE laboratories, and we're engaged in a process right now 
where we're working through just what would the specifics of an 
agreement like that be, and so at this point I can't say for 
certain that we've got these particular obstacles, but as we go 
through that process of working through what it would take for 
a private company to be able to build on a DOE site, I would 
suggest that we continue to work with your staff to communicate 
what issues may have arisen and figure out what the resolutions 
to those things might be.
    Chairman Weber. But you don't see any stumbling blocks to 
trying to establish this kind of cooperative effort to----
    Mr. Kotek. I think broadly speaking, no, and we're--we've 
been listening, frankly, to you and to folks like Mr. Rothrock 
and some of the innovators in nuclear to try to address just 
the types of challenges you folks are working to address.
    Chairman Weber. And you see the need, right?
    Mr. Kotek. Oh, absolutely.
    Chairman Weber. Good.
    Mr. Kotek. Yes, and that was really part of the motivation. 
I mean, a lot of the credit for the GAIN initiative comes from 
this larger conversation we've been having again with your 
folks in the drafting of this bill but also with Mr. Rothrock 
and others who want to innovate nuclear and want to get better 
access to our capabilities.
    Chairman Weber. Good.
    And Mr. Rothrock, a question for you. In your testimony, 
you also pointed out that the U.S. government oversight of 
nuclear energy R&D is required by law, and that advanced 
nuclear startup companies will need some degree of partnership 
from the federal government, and I think it was you who said, 
was it one dollar of private money and two dollards of--did you 
have that backwards? No, that's not the question. So how do you 
envision the National Reactor Innovation Center and Section 7 
of this bill, 4084? How do you envision that center assisting 
with this effort?
    Mr. Rothrock. Thank you. I envision it assisting very 
hands-on. There is--and there is already an existing example, 
the Mojave Air and Space Port in Mojave, California, 27 private 
companies, $3 billion of private investment on an old military 
base run by private enterprise but under the auspices of the 
FAA. It's not exactly what we're talking about here because at 
a facility like the national lab, you have people, skilled 
workers. You have the machines to turn the equipment, to build 
the equipment, to monitor the safety of it and the health 
physics. That's what we need. You know, getting a permit to 
create even a subcritical pile at a facility other than a 
national lab would be impossible in this country.
    So I see it being very direct, hands-on, in the lab with 
the private-company people and the laboratory people working 
hand in hand to demonstrate whatever it is they're trying to 
prove or show, and then also have the NRC embedded in that 
process too so they will not be surprised by something that's 
discovered.
    Chairman Weber. Well, that's a good point. We're going to 
go there with Dr. Klein here in just a second.
    Mr. Rothrock. Okay.
    Chairman Weber. But the point is that if this were a 
transportation bill or if this was infrastructure, a building, 
for example, we would call this a public-private partnership.
    Mr. Rothrock. Exactly.
    Chairman Weber. And so kind of along those same lines.
    And Dr. Klein, moving to you, as former Chairman of the 
NRC, what R&D capabilities do you think would be necessary for 
the NRC to help, as Mr. Rothrock just lined out, timely license 
and advanced reactor design?
    Mr. Klein. Well, thank you, Mr. Chairman, for the question.
    One of the challenges that the NRC has is, they need data 
to make their safety analysis, so that's why this bill is so 
important to provide the nuclear infrastructure, to provide 
data for which the NRC can then make a safety case, and I worry 
about our country losing its nuclear infrastructure and 
leadership.
    Chairman Weber. I do too.
    Mr. Klein. I'll give you a specific example. I've been 
asked by Terra Power to help guide them on some nuclear 
licensing activities for their design that Bill Gates is 
partially supporting. So Terra Power is a design for a fast 
reactor, and the fuel elements will be in there for longer than 
we've ever had this done before. So obviously for any kind of 
licensing, whether it's in China or in the United States, you 
need some data. In order for Terra Power to do some fuel-
quality studies, the only place they could go to do that work 
is the BOR-60 reactor in Russia, and I think that's a sad state 
of our nuclear leadership that we do not have the capabilities 
to do some of those science studies in the United States.
    Chairman Weber. Well, and I appreciate you saying that. So 
if the NRC was actually involved from the very get-go in 
watching this data get compiled, would that help in two ways? 
Would the validity of the data and timeliness so you don't have 
to go back and reevaluate?
    Mr. Klein. Right. It would be very beneficial for the NRC 
to be involved early and often. The NRC has a very good 
technical staff, and I think they can make decisions, but 
getting the data and understanding the quality of the data is 
necessary.
    Chairman Weber. And of course, going back to my discussion 
with Mr. Rothrock, I would point out that actually the funding 
for the NRC is actually a public-private partnership in some 
sense of the word. So thank for you that.
    And I'm going to yield to Mr. Grayson.
    Mr. Grayson. Thank you, Mr. Chairman.
    Mr. Rothrock, your testimony focused on shots on goal, the 
idea that if you let a thousand flowers bloom, some of them 
will actually bloom, and you also gave us a map that showed 
startup companies all over the country, dozens of them, 
focusing on developing fission concepts. How many shots on goal 
do we have funded by the federal government now in terms of 
fusion research, making fusion research work, making it 
economical and a net producer of energy? How many?
    Mr. Rothrock. There are seven that were on that map that 
are fusion specifically, and there are two that I'm aware of 
that are privately financed. The rest are government.
    Mr. Grayson. Okay. And historically, what are the main 
investments that we've made in fusion research over time?
    Mr. Rothrock. Well, there's the ITER project in France, 
which we've been contributing to, and there is the NIF facility 
at Livermore, which is a national ignition facility. Those are 
the two main ones that I'm aware of. There may be some smaller 
experiments in laboratories and universities but that's it 
primarily.
    Mr. Grayson. How much of federal funding for fusion goes to 
merit-based review of potential proposals that are innovative 
and high risk, high reward?
    Mr. Rothrock. I don't know.
    Mr. Grayson. Is it a large percentage or a small 
percentage?
    Mr. Rothrock. Probably--it's probably a small percentage.
    Mr. Grayson. Do you think it should be more?
    Mr. Rothrock. Absolutely.
    Mr. Grayson. Why?
    Mr. Rothrock. I think we should double our R&D budget 
everywhere on this topic.
    Mr. Grayson. Tell me why. Why do you say that?
    Mr. Rothrock. Because just as you opened with the notion of 
many shots on goal, you've got to have a lot of ideas tested in 
the earliest days to find out if they have merit and then they 
will eventually move forward. If they do have merit, they can 
seek private funding like many fission projects have and a few 
fusion projects have and receive that funding.
    Mr. Grayson. Mr. Kotek, what do you think?
    Mr. Kotek. Thank you, sir. My office, of course, doesn't 
fund the fusion energy research in DOE. That's a different part 
of the organization, so I'm not intimately familiar with the 
funding.
    With respect to your specific question about how much goes 
to innovative concepts, while I don't know off the top of my 
head, I can certainly work with my colleagues to get you an 
answer on that.
    Mr. Grayson. Dr. Klein, do you want to weigh in on this?
    Mr. Klein. Anything that enhances U.S. leadership in 
nuclear technology is money well spent. If you look at one of 
the programs that actually was funded by DOE that was a game 
changer was the genome project and so the Atomic Energy Act was 
what let them do that funding, and so we've all seen the 
results of that. I think the federal government has a 
responsibility to do high-risk research that then can be turned 
over to the private sector for innovation.
    Mr. Grayson. All right. Back to you, Mr. Rothrock. I 
understand that there was a milestone reached by Tri Alpha 
Energy recently and that you're familiar with that. Can you 
explain that, please?
    Mr. Rothrock. Sure. For fusion reaction to occur, you need 
to contain the hot plasma and you need to have it at a 
sufficient temperature that the nuclei will combine. Their 
milestone event was the containment of plasma at will in a 
controlled environment, and that is a huge milestone in the 
plasma universe.
    Mr. Grayson. So tell us what the next step would be.
    Mr. Rothrock. To take that same plasma and heat it up to 
the point where it will ignite and the nuclei will combine, 
creating the fusion process.
    Mr. Grayson. Is there a timeline for that?
    Mr. Rothrock. Yes, probably 5, six years from now.
    Mr. Grayson. Why so long?
    Mr. Rothrock. Well, we have--it takes about a year and a 
half to build the machine and another year and a half to run 
the data and then probably another year and a half to get it 
vetted by the world science community. Part of Tri Alpha's 
efforts recently has been to get the data out into the science 
world to have it vetted and confirmed that it is in fact good.
    Mr. Grayson. All right. Let's suppose that happens and it 
works. What does that mean for the world? What does that mean 
for America and the world?
    Mr. Rothrock. Well, it's extraordinary. In Tri Alpha's 
case, it is a fuel cycle that doesn't produce any neutrons so 
it is basically the radiation of a hospital, which means you 
can build very large, high-density electric power plants 
without the neutron radiation issue that you face with a 
fission plant. It would be extraordinary.
    Mr. Grayson. Is that because of the fuel?
    Mr. Rothrock. Fuel cycle.
    Mr. Grayson. Do you want to explain that?
    Mr. Rothrock. The fuel cycle of Tri Alpha is a proton boron 
reaction, which produces three alpha particles, which are 
helium with no neutrons. So it uses the soft X-rays to convert 
to heat to make steam to make electricity. The other fusion 
cycles, DT, that are being pursued at NIF and other places 
produce neutrons, and neutrons are very--they make everything 
radioactive.
    Mr. Grayson. The deuterium tritium cycle?
    Mr. Rothrock. DT cycle, yes, sir.
    Mr. Grayson. Okay. Mr. Kotek, do you want to address the 
idea of what it would mean for America and the world if we had 
a successful fusion program?
    Mr. Kotek. Well, certainly as part of the Administration's 
all-of-the-above energy strategy, we're pursuing fusion 
research in a wide range of non-emitting technologies, and so 
any advancements that would make more non-emitting technologies 
available in the commercial marketplace would be a great thing.
    Mr. Grayson. All right. Dr. Klein?
    Mr. Klein. I think if we can make commercial fusion, it'll 
be a game changer. The question will be, can we do it 
economically and what are the technical issues to overcome.
    Mr. Grayson. What do you mean by ``game changer''?
    Mr. Klein. It would be providing electricity to the public 
at hopefully a reasonable cost with less radiation involved, 
and an abundant fuel supply.
    Mr. Grayson. All right. I'll yield back. Thanks.
    [The prepared statement of Mr. Grayson appears in Appendix 
II]
    Chairman Weber. I thank the gentleman for yielding back.
    Let's see. Mr. Loudermilk from Georgia, you're recognized 
for five minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman, and to the 
witnesses, thank you for bearing with us during the craziness 
getting down to vote, and I appreciate you being here. Being 
from Georgia with the new standards that are coming, if they 
continue to promulgate, which hopefully they don't, but if they 
do, we're looking at losing a lot of our coal-fired plants and 
so we're going to rely more heavily on nuclear, which we do 
have the first nuclear new reactors going in at Plant Vogtle, 
which I visited a few months ago with Chairman Weber.
    But Dr. Klein, you brought up something that's very 
interesting to me. I chair the Oversight Subcommittee, and so 
efficiency and management of these projects is very important, 
and you brought up in your written testimony, you alluded to it 
in your verbal testimony, that DOE project managers as compared 
to the private sector equivalents have little incentive to 
control project costs, which of course overruns can hinder the 
advancement of future projects, also because of the lack of 
funds, and we all want to be very efficient, and I agree with 
you on that, but on the other hand, in a previous hearing 
regarding nuclear research and development in the testimony was 
that there's in some cases too much regulation and that stifles 
innovation, and so I wondered if you could just opine on where 
is that balance? What are some of the specifics that you would 
like for us to implement in Section 7 to strike that balance? 
And I agree with you, too much regulation or too little 
oversight can cause waste, too much regulation causes waste as 
well. If you would, sir?
    Mr. Klein. Sure. Thank you.
    As a recovering regulator from the NRC, one of the things 
that I think makes the NRC a better regulator is having to deal 
with the back-fit rule where you do have to make a risk-benefit 
choice. I think something like a risk-benefit back-fit rule 
would help DOE and their project management.
    You know, regulators always tend to be conservative. If 
five guards are good, 10 are even better, so why not do it. So 
there needs to be a check and balance, and I think on DOE, if 
they had the incentive to do like a back-fit rule, to do a 
risk-benefit analysis on the regulatory changes I think it 
would help the American people.
    Mr. Loudermilk. Thank you.
    Mr. Kotek, would you or Mr. Rothrock also like to weigh in 
on this at any stage if you have anything to add?
    Mr. Rothrock. Sure. With regard to the regulation of the--
getting through the design cycle and review, an issue that all 
the startup companies that I've interviewed face is that it 
takes a lot of money, a long time, and it's not predictable. We 
have in our government FAA, FDA. They're very dangerous 
processes, things that can be scary technologically, but we 
have processes in place to get those through to a point where 
the public--where they're safe for the public to use and they 
benefit the public. That system does not exist at the Nuclear 
Regulatory Commission, and it needs to be addressed, and some 
of us are working with various people. Chairman Burns is well 
aware of this. I've spoken to him personally about it. But it 
is something very important to build a risk-based analysis, 
technology-neutral analysis rather than prescriptive work.
    Mr. Loudermilk. Mr. Kotek?
    Mr. Kotek. Thanks. With respect to that particular issue of 
regulation, one of the things that we're doing in our 
organization is working with the Nuclear Regulatory Commission 
to help them as they prepare to receive applications for 
advanced reactors. So they've got extensive experience dealing 
with water-cooled reactor technologies but not really with 
molten salt or metals, et cetera, or gas-cooled reactors. And 
so we've been working with them over the last several years to 
develop generic design criteria that could be used in the 
licensing of advanced reactor types, holding workshops with 
them, had a very successful one back in September. We'll hold 
another one early next year to try and help them understand 
what are the issues that they're going to have to confront as 
they start receiving some of these advanced reactor designs, 
and we found that the NRC to be a very willing participant in 
those discussions under the leadership of Chairman Burns.
    Mr. Loudermilk. Mr. Chairman, with that, I yield back my 
remaining 30 seconds.
    Chairman Weber. I thank the gentleman, and my good friend 
from Texas, Mr. Veasey, is recognized.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to just ask you to describe the difference between 
the process here for bringing a reactor online versus, let's 
say, in France. I've always heard that sometimes it may be 
easier in that part of Europe to bring a reactor on to the 
market versus in America. Can you kind of explain the 
differences?
    Mr. Klein. That's a very good question. One of the 
challenges that we have in the United States is, we have a lot 
of vendors and a lot of different utilities. France has the 
advantage of having one vendor, government-owned, one utility, 
countryowned, and so therefore they have a standardized plant, 
and what they do is, they will wait ten years before they'll 
come out with a new model. So all the advances that they will 
make, they will bucket those until they come out with their 
next model. So really, the France technology is developed out 
of Westinghouse's technology so it's originally rooted in U.S. 
technology but their standardized plants, one vendor, makes 
their licensing more simple. I think in the United States, we 
could do it just as fast once we get the standardized reactors 
through the design certification and the building process like 
we're doing for Vogtle 3 and 4.
    Mr. Veasey. So there's no safety issue at all with them 
bringing them on faster? Because I know that some people will 
say no, if you bring them on faster, maybe you're giving up 
safety but you're saying that there's no safety at all, it's 
just the process is what's different?
    Mr. Klein. Yeah, it's a preapproved standardized process, 
no compromises on safety, so their reactors are as safe as 
ours.
    Mr. Veasey. You know, one of the--you know, we have a 
nuclear power plant in the part of Texas that I'm from. I live 
in Fort Worth, and we have one down in Comanche Peak not too 
far away, and, you know, one of the issues that always comes up 
is storage of nuclear waste, and of course, you know, you can 
store on site or move it to a secondary location but of course 
moving that to a secondary location has always been, you know, 
controversial whether it's, you know, Yucca, West Texas. Like 
what do you think are the long-term solutions for dealing with 
that problem of nuclear waste?
    Mr. Klein. Well, I visited Comanche Peak several times. 
That's a very nice facility, safely run. One of my most 
frustrating activities I had as Chairman of the NRC was the 
pulling of the Yucca Mountain license application. My job as 
Chairman was to determine whether it was safe or not. We had a 
staff of 150 that were marking that technical determination, 
and they never had the opportunity to finish that. That 
application was over 8,000 pages, referenced over a million 
pages of other additional data, and so my frustration part was 
that as the NRC, as the regulatory body to make the safety 
analysis of that case, we never had that opportunity. So that's 
one issue.
    At-reactor storage is safe. Having a centralized storage is 
safe. But we really need as a Nation to move towards a 
permanent disposition program. It's not a safety issue, it's a 
political issue.
    Mr. Veasey. So for instance, like how could a plant like, 
let's say, Comanche Peak or another plant around the country 
safely store spent fuel?
    Mr. Klein. You can safely store dry cask storage for over a 
hundred years so it's not a near-term issue, but it is one in 
which I think as a Nation we need to progress towards a 
permanent strategy, and right now we don't have one as a 
Nation.
    Mr. Veasey. Thank you. Dr. Klein, thank you. I appreciate 
it.
    Mr. Chairman, I yield back my time.
    Chairman Weber. I thank the gentleman.
    The gentleman from California is recognized for five 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I'd 
like to congratulate you, Mr. Chairman, as well as the Chairman 
of the full Committee on moving forward with this bill, and 
it's a very significant issue that we have to deal with, and I 
don't think we've dealt with it, and we've let ourselves get 
behind. I was just over in France where they of course get most 
of their electricity from nuclear energy, and they made those--
they made certain technology decisions earlier on that gave 
them that capability, and they have not had the ups and downs 
and the problems with being dependent on energy from another 
country.
    About the issues we were just discussing, in terms of 
storage, do we not have the technological capability now of 
building nuclear reactors that will not have this leftover 
waste? And in fact, I've been told by several major companies 
that it is now within our capability to build nuclear power 
plants that actually eat the waste that we've had from the past 
ones. Why are we focused at all on building anything that has 
leftover waste problem when we have the capability to do 
something else? The gentleman is shaking his head. Go right 
ahead.
    Mr. Rothrock. Yes, we do have that capability. There are a 
number of advanced reactors in design today by startup 
companies that I showed earlier that would like to burn up all 
the spent fuel. There is an enormous amount of energy stored in 
those pools at these existing reactors, and the site already 
exists, the fuel pool is there. Why wouldn't we build a reactor 
just to consume all that fuel?
    Mr. Rohrabacher. How much would it cost--I mean, I was here 
earlier for--sorry, we had to go out and vote and all these 
other things. How much would it cost--I noted the billion and a 
half dollars that's being invested in the private sector in 
this whole goal. How much would it cost to build one of these? 
I know about five or six different, you know, high temperature 
gas-cooled reactor, pebble-based reactor and thorium reactors. 
They've all been--I like them all. I'm not--I don't have an 
expert in these like you fellows do. I didn't have to tell 
which is best. But why are we not--first of all, how much would 
it cost to build a prototype of one of those small modular 
reactors that does not have the waste problem?
    Mr. Rothrock. Boy, I need to be careful here, but we've 
done that estimate at the company Transatomic and we think it's 
about five years and $300 million we could demonstrate that 
capability.
    Mr. Rohrabacher. So five years and $300 million. Would we 
have a prototype then or just demonstrating the----
    Mr. Rothrock. Demonstrating the ability to burn spent fuel 
and to consume it.
    Mr. Rohrabacher. Mr. Chairman, again, if we're going to 
have a future in nuclear energy, let's not build light water 
reactors that add more waste and can't handle the major problem 
that we have when we have the capability of moving forward, but 
again, building a couple--500 million bucks or something like 
that to build that prototype, that maybe--is there a way we can 
facilitate those people in the private sector to move forward 
with that type of expenditure?
    Mr. Rothrock. We've had numerous conversations with Idaho 
National Lab about putting that prototype there, what it would 
cost, what it would take. Mr. Kotek's department is well aware 
of some of these ideas. These are early conversations. But we 
think it's quite doable.
    Mr. Kotek. Yeah, and Congressman, if I could add to that, 
we certainly are in discussion, have been made aware of 
companies that are interested in potentially working with the 
Department of Energy to build prototypes, for example, on DOE 
sites. We're going through the process now of understanding 
just what would the contractual relationship need to look like.
    With respect to----
    Mr. Rohrabacher. What--yes. Go ahead.
    Mr. Kotek. With respect to the question about waste, I do 
think it's important to note that you never make all of the 
waste go away, even if you have a full recycle system where 
you're recovering all the uranium, plutonium, what we call 
minor actinide elements, you still have some very long-lived 
wastes that are left, and so we will always need some sort of a 
long-term waste isolation capability to support nuclear.
    Mr. Rohrabacher. Yes, but not at the scale.
    Mr. Kotek. I understand. I just wanted to make--I felt I 
needed to make that clarification.
    Mr. Rohrabacher. If it was--if the scale was smaller, this 
would not be as great a challenge by definition, and look, we 
need to move forward, not base--again, light water reactors, 
they've been around since before I was born. We don't need to 
move forward and facilitate the production of nuclear reactors 
based on that when we have other options. I mean, I understand 
even--is it Lockheed now that has a possibility of a fusion 
reactor, small fusion reactor? Is that-- has anybody looked at 
that?
    Mr. Rothrock. They do. It's an experiment at this point, 
and it's very small.
    Mr. Rohrabacher. Right. And is that real? Is that----
    Mr. Rothrock. I don't know. I've not----
    Mr. Rohrabacher. Any comments on it? Is it just some kind 
of a dream that isn't attached to reality there?
    Again, there's--we have some new weapon systems right now 
that we need small modular nuclear reactor in order to make 
those weapon systems work, and I sure hope that's one part of 
the formula but the other part of the formula is, our grid. The 
grid is vulnerable, and if we can have small modular nuclear 
reactors, we can take the public off the grid. We can have--
each community can have their small reactor and you're not 
going to have this vulnerability that we have now with some 
solar surge or some nuclear explosion up in the atmosphere. We 
need to move forward in a rational way, and I'm afraid that 
we're moving forward with big companies now that basically want 
to build what they've already built, and I hope that's not the 
case.
    Thank you very much, Mr. Chairman. Thank you for leading 
the fight to put this bill through and get this passed.
    Chairman Weber. I thank the gentleman. Does that mean 
you've signed on to our bill?
    Mr. Rohrabacher. I think I already have.
    Chairman Weber. All right. Thank you. I appreciate that.
    I want to thank the witnesses for their valuable testimony 
and the members for their questions. The record shall remain 
open for two weeks for additional comments and written 
questions from the members.
    This hearing is adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
